Appends /\

.*

CLARK COUNTY, OHIO

mi®

.

.

JU-L - 2 2020

COURT OF APPEALS
IN THE COURT OF APPEALS
M TUTTLE, CLERK
SECOND APPELLATE DISTRICT
---------------CLARK COUNTY

i

STATE OF OHIO
Appellate Case No. 2018-CA-77
Plaintiff-Appellee
Trial Court Case No. 2017-CR-761A

v.
RAMON A. BOYCE

:

FINAL ENTRY

a.

1

Defendant-Appellant

I

#

Pursuant to the opinion of this court rendered on the
of

July

2nd

day

, 2020, the trial court’s sentence on Count 19 is vacated, and the

matter is remanded to the trial court for an amended judgment entry. In all other respects,
the trial court’s judgment is affirmed.
Costs to be paid by the Appellant.
s
i

Is

Pursuant to Ohio App.R. 30(A), it is hereby ordered that the clerk of the
Court of Appeals shall immediately serve notice of this judgment upon all parties and make

t

a note in the docket of the mailing.
/

/]

s !/

t

f >/

j.

/
/MICHAEL L/TUCKER, Presiding Judge

i

I

THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT

<?

!

(

1

V

I

-2-

!

!

'■

*

JEFFREY E.jMfEUCH, Judge
I:• •
?

ft
'±j. / • Yi

\

MICHAEL T. HALL, Judge

I

I ^ ■

I

I

I
l

Copies sent to:
i

John M. Lintz
Clark County Prosecutor’s Office
50 E. Columbia Street, Suite 449
Springfield, OH 45502
jlintz@clarkcountyohio.gov
Craig M. Jaquith
250 E. Broad Street, Suite 1400
Columbus, OH 43215
Craig jaquith@opd.ohio.gov
I

Hon. Douglas M. Rastatter
Clark County Common Pleas Court
101 N. Limestone Street
Springfield, OH 45502

s

THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT

\0

I

ApptrtdlK £>

IN THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT
CLARK COUNTY
STATE OF OHIO
Plaintiff-Appellee

Appellate Case No. 2018-CA-77

v.

Trial Court Case No. 2017-CR-761A

RAMON BOYCE
Defendant-Appellant

DECISION AND ENTRY
Rendered on the

8th

day of

September

2020.

PER CURIAM:
Pursuant to App.R. 26(A)(1), Ramon Boyce asks us to reconsider our July 2 2020
judgment affirming his convictions on one count of engaging in a pattern of corrupt activity
(a felony of the first degree), 18 counts of burglary (one felony of the second degree

and

17 felonies of the third degree), and six counts of receiving stolen property (three felonies
of the fifth degree and three misdemeanors of the first degree).

Boyce focuses

on his

third assignment, which claimed that the trial court erred in denying his motion to suppress
evidence from a warrantless search of his vehicle.

THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT

tl

-2-

App.R. 26(A)(1)

u <

provides a mechanism by which a party may prevent

miscarriages of justice that could arise when an appellate court makes an obvious error
or renders an unsupportable decision under the law.’ ” State v. Gillispie, 2012-Ohio-2942,
985 N.E.2d 145,

9 (2d Dist.), quoting State v. Owens, 112 Ohio App.3d 334, 336, 678

N.E.2d 956 (11th Dist.1996).

However, “‘[a]n application for reconsideration is not

designed for use in instances where a party simply disagrees with the conclusions
reached and the logic used by an appellate court.’ ” Id., quoting Owens at 336. Rather,
the application must call the court’s attention to obvious errors in a decision or must
raise issues that the court either failed to consider or did not fully consider when the
original decision was made.” Id.
Boyce claims that we made an obvious error when we concluded that Springfield
Police Officer Derrick Nichols did not unreasonably prolonged the traffic stop by
conducting a free air sniff with the officer’s canine partner.

His primary contention is that

the evidence showed that Officer Nichols ran Boyce’s information prior to the stop, and
therefore the officer prolonged the stop by providing Boyce’s information to the dispatcher
again. Boyce claims that his name was run and cleared prior to the free air dog sniff.
Boyce also asks us to consider several additional facts:
1. Officer Freeman arrived on her own and testified to that in municipal court;
Officer Nichols did not call for back-up.
2. Officer Freeman testified in municipal court that Boyce’s name was cleared
before she arrived.
3. Officer Nichols did not believe Boyce to be a drug dealer.
4. The cruiser video shows that Officer Nichols wanted to stop Boyce and just

THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT

\x

-3-

happened to find marijuana. Boyce states that the dog sniff was not based on
a belief that Boyce had drugs.
5. The trial court ignored Officer Nichols’s testimony that he ran Boyce’s name
twice.
Boyce claims that, with these facts, his case is distinguishable from State v. Maston, 2d
Dist. Montgomery No. 27567, 2018-Ohio-1948, which we found analogous to Boyce’s
circumstances.
We have again reviewed the suppression hearing transcript and exhibits. The
State presented the testimony of Officer Nichols and, on an unrelated search warrant
issue, Detective Jean Byrne. The State also presented eight documentary exhibits, all
of which related to the search warrant issue: the municipal court decision on the motion
to suppress, the municipal court docket and entry, two Clark County search warrants, a
Clark County tracking device warrant, and a Franklin County complaint, and a Franklin
County search warrant.

Boyce testified on his own behalf, but did not present any

documentary evidence. The evidence at the suppression hearing did not include a copy
of the cruiser video depicting the stop nor a transcript of the suppression hearing held in
the municipal court.
In reviewing the trial court’s ruling on the motion to suppress, we may consider
only the evidence before the trial court at the suppression hearing. E.g., State v. Curley,
2016-Ohio-7624, 73 N.E.3d 1050, H 19 (2d Dist.); State v. Knisley, 2d Dist. Montgomery
No. 22897, 2010-Ohio-116, fl41 (“We must confine our review of the trial court’s decision
on the motion to suppress to the evidence before the trial court at that time.”). We cannot
consider any evidence outside the record of the suppression hearing. Accordingly we

THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT

13

-4-

cannot consider the cruiser video of the traffic stop or any testimony from the municipal
court suppression hearing or Boyce’s trial, as none of that evidence was presented to the
trial court at the January 8, 2018 suppression hearing.
Upon review of the suppression hearing transcript, we find no obvious error in our

;

July 2, 2020 opinion and judgment.

Officer Nichols testified that he ran the BMW’s

license plate prior to stopping it. He learned that the vehicle belonged to Boyce, the
vehicle had not been reported stolen, the Law Enforcement Automated Database
t

(LEADS) showed no warrants for Boyce, and Boyce’s license was valid. Prior to the
stop, Nichols did not know who was driving the vehicle.
After initiating the traffic stop and approaching the BMW, Officer Nichols learned
that Boyce was the driver of the vehicle.
license and insurance information.

Officer Nichols obtained Boyce’s driver’s

Upon returning to his cruiser, Nichols provided

Boyce’s personal information to the dispatcher. The dispatch log indicated that Boyce’s
birthdate and Social Security number were provided or entered at 7:35 p.m.

The

dispatcher responded that Boyce did not have any warrants, had prior aggravated robbery
arrests, was a career criminal, and had a valid license.
Boyce asserts that Officer Nichols unlawfully prolonged the traffic stop by providing
Boyce s information a second time. We disagree. Officer Nichols initially did not know
who was driving the BMW, and he requested information based on the vehicle’s license
plate.

It was reasonable for the officer to request information based on Boyce’s personal

information once Boyce was identified as the driver.
Boyce further emphasizes that Officer Nichols did not believe Boyce to be a drug
dealer. As we stated in our July 2 opinion, a police officer need not have a reasonable

THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT

w

-5-

suspicion that a vehicle contains contraband prior to summoning a canine drug unit or
conducting a canine free air sniff. State v. Thomas, 2d Dist. Montgomery No. 22833,
2009-0hio-3520,

15.

Furthermore, the

use of a trained narcotics dog to sniff an

automobile does not constitute a search’ under the Fourth Amendment. State v.
Raslovksy, 2d Dist. Clark No. 2019-CA-55, 2020-0hio-515, H14, citing Illinois

v. Caballes,
543 U S. 405,125 S.Ct. 834,160 L.Ed.2d 842 (2005). Whether Officer Nichols believed
that Boyce was a drug dealer or had contraband in the BMW has

no bearing on whether

the dog sniff was lawful.
The record reflects that Officer Nichols had his canine partner in his
Nichols did not unlawfully prolong the stop to conduct a canine free air sniff,

cruiser, and
We find no

obvious error in our determination that Officer Nichols diligently conducted the traffic
investigation up to the time when the officers

removed Boyce from his vehicle and Officer

Nichols walked his canine partner around Boyce's BMW. As we stated in our opinion
Officer Nichols spent the first four minutes performing the standard background
investigation into Boyce through dispatch. Officer Freeman arrived while Officer Nichols
was conducting that investigation, and Officer Nichols proceeded

with the free air dog

sniff upon Officer Freeman’s arrival. The dog alerted to drugs six minutes after the stop
began, and his alert provided probable cause for the officers

search of the BMW.

Boyce’s application for reconsideration is denied.
IT IS SO ORDERED.

JEFFREYM

OELICH, Judge

THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT

15

-6-

r>

0Y> Y
MICHAEL T. HALL, Judge
!

MlCHAEL/L. TUCKER, Judge

Copies mailed to:
John M. Lintz
Clark County Prosecutor’s Office
50 E. Columbia Street, Suite 449
Springfield, OH 45502
Craig M. Jaquith
250 E. Broad Street, Suite 1400
Columbus, OH 43215
Ramon Boyce, #A744-309
Warren Correctional Institution
P.O. Box 120
Lebanon, OH 45036
Hon. Douglas M. Rastatter
Clark County Common Pleas Court
101 N. Limestone Street
Springfield, OH 45502
t

THE COURT OF APPEALS OF OHIO
SECOND APPELLATE DISTRICT

fb

j

c

i

_____fr3 0 0
?r’ H L

wlje Supreme Court of ®hto

ED

$07 2k 2020

„ CLERK OF COURT
SUPREME COURT OF OHit

I
I<:

State of Ohio
V.

<<

Case No. 2020-1210
ENTRY

Ramon A. Boyce

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Clark County Court of Appeals; No. 2018-CA-77)

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

17

IN IBE COMMON PLEAS COURT OF CLARK COUNTY, OHIO

<\

;\

CASE-NUMBER: 17-CR-761 '%

STATE OF OHIO

C-V-5

vs.

RAMON BOYCE
(D.O.B.: 4/1/85)
(SS#: xxx-xx-8260)

/

*

JUDGMENT ENTRY OF -•
CONVICTION / WARRANT
FOR REMOVAL

•e' ^

* *

On May 11,2018, after a three-week trial, the defendant was convicted by jury of
. the following offenses:
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count one of die indictment;
-Receiving stolen property, a felony of the fifth degree, pursuant to Ohio Revised Code
Section 2913.51(A) as set forth in count two of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count three of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count four of the indictment;
-Burglary, a felony of the tiiird degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in Gount five of the indictment;
-Receiving stolen property, a misdemeanor of the first degree, pursuant to Ohio Revised
Code Section 2913.51(A) as set forth in count six of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count seven of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as .set forth in count eight of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count nine of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count ten of the indictment;
-Burglary, a felony of the-third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count eleven of the indictment;

mi

A^i

<8

\0

-Receiving stolen property, a misdemeanor of the first degree, pursuant to Ohio Revised
Code Section 2913.51 (A) as set forth in count twelve of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count thirteen of the indictment;
-Receiving stolen property, a misdemeanor of the first degree, pursuant to Ohio Revised
Code Section 2913.51(A) as set forth in count fourteen of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as a lesser-included offense in count fifteen of the indictment;
-Receiving stolen property, a felony of the fifth degree, pursuant to Ohio Revised Code
Section 2913.51 (A) as set forth in count sixteen of the indictment;
-Receiving stolen property, a felony of the fifth degree, pursuant to Ohio Revised Code
Section 2913.51(A) as set forth in count nineteen of the indictment; '
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count twenty of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count twenty-one of the indictment;
-Burglary, a felony of tire third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count twenty-two of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count twenty-three of the indictment;
-Receiving stolen property, a felony of the fifth degree, pursuant to Ohio Revised Code
Section 2913.51(A) as set forth in count twenty-four of the indictment;
-Engaging in a pattern of corrupt activity as a felony of the first degree, pursuant to Ohio
Revised Code Section 2923.32(A)(1) as set forth in count twenty-five of the indictment;
-Burglary, a felony of the third degree, pursuant to Ohio Revised Code Section
2911.12(A)(3) as set forth in count twenty-six of the indictment;
-Burglary, a felony of the second degree, pursuant to Ohio Revised Code Section
2911.12(A)(1) as set forth in'count twenty-seven of the indictment; and
-Burglary, a felony of the third degree, pursuant to Ohio Revised .Code Section
2911.12(A)(3) as set forth in count twenty-eight of the indictment.

3-62

The Court set disposition for May 15, 2018 and Ordered that the defendant be
held without bond pending disposition.
On May 15,2018, the defendant’s sentencing hearing was held pursuant to Ohio
Revised Code Section 2929.19. The defendant was present, pro se, and the State was
represented by Andy Wilson and Aaron Heskett. The Court considered the record, oral
statements of counsel, the defendant’s statement, the principles and purposes of
sentencing under Ohio Revised Code Section 2929.11, the defendant’s prior criminal
record, and has balanced the seriousness and recidivism factors under Ohio Revised Code
Section 2929.12.
The Court found, pursuant to Ohio Revised Code Section 2929.14(C)(4), that
consecutive sentences (1) are necessary to protect the public from future crime and to
punish the defendant, (2) are not disproportionate to the seriousness of the defendant’s
conduct and to the danger the defendant poses to the public, (3) are necessary to protect
the public from fixture crime by the defendant given the defendant’s history of criminal
conduct, and (4) at least two of the multiple offenses were committed as .part of a course
of conduct and the harm caused by the offenses so committed was so great or unusual
that no single prison term adequately reflects the seriousness of the defendant’s conduct.
IT IS HEREBY ORDERED that the defendant be sentenced as follows:
-Three (3) years in the Ohio State Penitentiary (OSP) for burglary, a felony of the third
degree, pursuant to Ohio Revised Code Section 2911.12(A)(3) as set forth in count one of
the indictment;
-One (1) year OSP for receiving stolen property, a felony of the fifth degree, pursuant to
Ohio Revised Code Section 2913.51(A) as set forth in count two of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
• Code Section 2911.12(A)(3) as set forth in count three of the indictment;
-Three (3) years OSO for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count four of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count five of the indictment;
-Six (6) months in the Clark County Jail for receiving stolen property, a misdemeanor of
the first degree, pursuant to Ohio Revised Code Section 2913.51(A) as set forth in count
six of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count seven of the indictment;

3r93*
A^3

9Jb

-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count eight of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to'Ohio Revised •
• Code Section 2911.12(A)(3) as set forth in count nine of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count ten of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count eleven of the indictment;
-Six (6) months in the Clark County Jail for receiving stolen property, a misdemeanor of
the first degree, pursuant to Ohio Revised Code Section 2913.51(A) as set forth in count
twelve of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count thirteen of the indictment;
-Six (6) months Clark County Jail for receiving stolen property, a misdemeanor of the
first degree, pursuant to Ohio Revised Code Section 2913.51 (A) as set forth in count
fourteen of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as a lesser-included offense in count.fifteen of the
indictment;
-One (1) year OSP for receiving stolen property, a felony of the fifth degree, pursuant to
Ohio Revised Code Section 2913.51(A) as set forth in count sixteen of the indictment;
-One (1) year OSP for receiving stolen property, a felony of the fifth degree, pursuant to
Ohio Revised Code Section 2913.51(A) as set forth in count nineteen of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
• Code Section 2911.12(A)(3) as set forth in count twenty of the indictment;
-Three (3) yea's OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count twenty-one of the indictment;
-Three (3) yeas OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count twenty-two of the indictment;
-Three (3) yeas OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count twenty-three of the indictment;

t04

3.1

-One (1) year OSP for receiving stolen property, a felony of the fifth degree, pursuant to
Ohio Revised Code Section 2913.51(A) as set forth in count twenty-four of the
indictment;
-Eleven (11) years OSP for engaging in a pattern of corrupt activity as a felony of the
first degree, pursuant to Ohio Revised Code Section 2923.32(A)(1) as set forth in count
twenty-five of the indictment;
-Three (3) years OSP for burglary, a felony of the third degree, pursuant to Ohio Revised
Code Section 2911.12(A)(3) as set forth in count twenty-six of the indictment;
-Eight (8) years OSP for burglary, a felony of the second degree, pursuant to Ohio
Revised Code Section 2911.12(A)(1) as set forth in count twenty-seven of the indictment;
and
-Three (3).years OSP for burglary, a felony of the third degree, pursuant to" Ohio Revised
Code Section 2911.12(A)(3) as set forth in count twenty-eight of the indictment.
IT IS FURTHER ORDERED that all felony receiving stolen property offenses
(Counts 2,16,19, and 24) run consecutively to one another for a total of four (4) years
OSP. The sentences for the misdemeanor receiving stolen property offenses (Counts 6,
12, and 14) shall run consecutively to one another but, by law, concurrently with the
felony receiving stolen property offenses.
IT IS FURTHER ORDERED that all remaining felony offenses run consecutively
to one another for a total of seventy (70) years OSP.
IT IS FURTHER ORDERED that the four (4) year aggregate sentence for the
receiving stolen property offenses run concurrently to the remaining felony sentences.
Accordingly, IT IS HEREBY ORDERED that the defendant serve an aggregate
sentence of seventy (70) years OSP with jail credit from July 7,2017 until conveyance to
the penitentiary.
The Court notified the defendant that he may be eligible to earn days of credit
toward his sentence while in the penitentiary under the circumstances specified in Ohio
Revised Code Section 2967.193 and, as a result, his sentence may be reduced by up to
8%.
The Court notified the defendant that post-release control (PRC) is mandatory in
this case for five years. Accordingly, the defendant is Ordered to serve as part of this
sentence five years of PRC.
The Court further notified the defendant that one of the following sanctions could
be imposed upon him if he violates PRC: (1) The duration of PRC may be increased up
to a maximum term of eight years; (2) more restrictive rules may be placed upon him; (3)

he could return to prison (the maximum term for each violation is one-half of the original
prison term or nine months, whichever is less, and the maximum cumulative term for all
violations is one-half of the original prison term); and (4) if he commits a felony offense
while on PRC and is convicted of that offense, his PRC could be terminated and he could
be sentenced to prison for the greater of one year or the amount of time he has remaining
on PRC and it would be mandatory that the PRC time run consecutively to his sentence
on the new felony offense.
Restitution in the amount of $3,049.94 is hereby Ordered and shall be satisfied
with the $4,765 inUS Currency seized from the defendant. The remainder of the US
Currency, $1,715.06, seized shall be returned to the defendant.
The defendant is Ordered to forfeit (1) the 2009 black BMW 328X1 bearing VIN#
WBAPK53589A511439, (2) the 2006 silver Chrysler 300 bearing VIN#
2C3KA43R86H307786, and (3) the 2002 tan Ford Explorer bearing VIN#
1FMZU73EE72UB02818 to tire State for law enforcement use only. If the vehicle is
sold, the proceeds shall be divided between the Clark County Prosecutor’s Office and the
seizing agency. The Clerk is Ordered to issue a title to the agency that employed the
seizing officer.
IT IS HEREBY ORDERED that any property or evidence held by law .
enforcement in connection with this case, not otherwise specified in this Entry, may be
released, destroyed, converted to law enforcement use, or otherwise disposed of thirty
(30) days after the filing of this Entry provided that (1) no appeal is pending and (2)
approval is obtained from the Clark County Prosecutor or his Assistant.
The Court hereby notifies the defendant that he has the right to (1) appeal his
conviction, (2) have a notice of appeal filed timely on his behalf, (3) have an attorney
appointed to represent him on appeal if he cannot afford to retain an attorney, and (4)
■ have the documents necessary to perfect his appeal provided at no cost if he is unable to
afford the cost of those documents.
Defendant is ORDERED conveyed to the Ohio State Penitentiary, c/o the Orient
Correctional Facility, Orient, Ohio.
IT IS SO o:

;d.

DOUGLAS M. RASTATTER, JUDGE

cc:

Andy Wilson/Aaron Heskett
Defendant/Matt Barbato

A-S

93

t
IN THE COMMON PLEAS COURT OF CLARK COUNTY, OHIO
CASE NUMBER: 17-CR-761(A)

STATE OF OHIO
vs.

AMENDMENT TO CONVICTION
ENTRY

*

RAMON BOYCE

*

The May 15,2018 Entry of Conviction is hereby amended by omitting any
reference to a conviction or sentence with respect to the fifth-degree felony receiving
stolen property offense set forth in count nineteen of the indictment, as that offense
pertains only to co-defendant Quiana Boyce.
Accordingly, the sixth conviction referenced on page two of the Entry shall be
Ordered stricken and the tenth sentence referenced on page four of the Entry shall be
Ordered stricken.
Furthermore, the first sentence of the first full paragraph on page five of the Entry
shall be amended to read as follows:
IT IS FURTHER ORDERED that all felony receiving stolen property offenses
(Counts 2,16, and 24) run consecutively to one another for a total of three (3) years
OSP.
Furthermore, the third paragraph on page five of the Entry shall read as follows:
IT IS FURTHER ORDERED that the three (3) year aggregate sentence for the
receiving stolen property offenses run concurrently to the remaining felony sentences.
The remainder of the original Entry of Conviction including, but not lingp to^
the seventy (70) year aggregate sentence shall remain in full force and effect^ << ^ ca

29/

IT IS SO ORDERED.

S
ro

O

_[

-i«)r

lO
v£>

-o
_

6ll 05

-DOUGLAS M. RASTATTER, JUDGE

cc:

Andy Wilson/Aaron Heskett
Defendant Ramon Boyce
Matt Barbato, Standby Counsel for Ramon
ODRC

tOT
A—7

^4

t9cZ£°

\

=* o

.?ro« *3
o
"S

t—’

